No.
In The

^xxprtme (Enwrl of
Northern Trust Corporation and Northern Trust Company,
Petitioners,
V.

Lindie L. Banks and Erica LeBlanc,
Respondents,
CERTIFICATE OF SERVICE
I, Ian Heath Gershengorn, hereby certify that I am a member of the Bar of this
Court, and that I have this 2nd day of October 2019, caused three copies of the Petition
for a Writ of Certiorari to be served via overnight mail and an electronic version of the
document to be transmitted via the Court’s electronic filing system to:
Brian J Malloy
Thomas John Brandi
The Brandi Law Firm
354 Pine Street Third Floor
San Francisco, CA 94104
(415) 989-1800
bjm@brandilaw.com
tjb@brandilaw.com

Derek G Howard
Howard Law Firm
42 Miller Avenue
Mill Valley, CA 94941
(415) 432-7192
derek@dhowlaw.com

Ian Heath Gershengo

